                   OFFICE OF INSPECTOR GENERAL


                     REVIEW OF
         NATIONAL ENDOWMENT FOR THE ARTS’
     CONTROL OVER COMPUTER-RELATED EQUIPMENT



                                         Report No. R-11-02

                                          January 25, 2011




                                          REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on the
National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly available
with the approval of the NEA Office of Inspector General. Information contained in this report may be
confidential. The restrictions of 18 USC 1905 should be considered before this information is released to the
public. Furthermore, information contained in this report should not be used for purposes other than those
intended without prior consultation with the NEA Office of Inspector General regarding its applicability.
                                       BACKGROUND


During the FY 2010 Evaluation of the National Endowment for the Arts’ (NEA) Compliance with
the Federal Information Security Management Act of 2002 (FISMA), the Office of Inspector
General (OIG) became aware of a computer security incident involving the theft of a laptop
computer (“laptop”) from the office of an NEA employee. While it does not appear that this
incident resulted in any identity theft or other damage to the Agency or persons involved, we
felt it was critical to understand the factors and circumstances that led to the theft of the laptop
and identify what needs to be done to strengthen controls over the Agency’s computer-related
equipment.

Our review of the incident noted several weaknesses in the computer security incident
reporting process and physical security of laptops. As a result, we increased the scope of the
review to include reported computer security incidents involving laptops during the past five
years.

                                    OBJECTIVE/SCOPE
The objective of the review was to determine whether NEA was processing and reporting
computer security incidents, specifically those involving laptop thefts, in accordance with its
policies and federal guidance such as the National Institute of Standards and Technology’s
(NIST) Special Publication (SP) 800-61, Computer Incident Handling Guide. A computer
incident within the federal government, as defined by NIST SP 800-61, is a violation or
imminent threat of violation of: computer security policies, acceptable use policies, or standard
computer security practices. NIST guidance and NEA’s Computer Security Incident Policy
further describe thefts of hardware or software as computer incidents.

Our scope was computer security incidents involving the theft of laptops reported from FY
2005 to present. The review was conducted in accordance with the Council of the Inspectors
General on Integrity and Efficiency Quality Standards for Inspections and Evaluations, as
applicable.


                                       METHODOLOGY

We interviewed NEA staff from Information and Technology Management (ITM), Administrative
Services Office (ASO), and other affected personnel. We held discussions with General
Service Administration staff and contractors responsible for building operations and security at
the Old Post Office Building (OPO). We also held discussions with officials at the Federal
Protective Service. We obtained and reviewed NEA policies and the NIST guidelines for
reporting computer security incidents. NEA has two internal policies that define procedures for
reporting computer security incidents:


                                                 2
   1. NEA Directive Number 1355, Revision No. 2, Security of Arts Endowment Offices,
      effective 2/14/06
   2. NEA ITM Computer Security Incident Policy, rev. 11/15/10

NEA’s Information and Technology Management (ITM) provided us with a list of computer
security incidents, involving laptops, reported since FY 2005. In total, there were seven
laptops stolen and one listed as “issued and never returned” by a staff member who is no
longer employed at the Agency. We reviewed each incident and applicable guidelines to
determine NEA’s compliance with computer security incident reporting requirements. Details
are presented below.


                                 INCIDENT NOTIFICATION
An organization’s ability to respond to computer-related security incidents is necessary for
rapidly detecting incidents, minimizing loss and destruction, and mitigating weaknesses.
Timely reporting and notification is essential to effective handling of computer security
incidents to allow both external and internal parties to execute their responsibilities to ensure
quick resolution.

Since FY 2005, there have been eight reportable computer security incidents at the NEA.
Of the eight incidents, two were not reported to the ITM Information System Security
Officer (ISSO), one was not reported to the FPS and none were reported to the OIG.
According to NEA’s ITM Computer Security Incident Policy, both “NEA’s Administrative
Services Office and the Federal Protective Service are to be notified of all computer-
related thefts.” ITM’s policy, however, did not include notification to the OIG. The Office
of Management and Budget (OMB) Memorandum, M-07-16, Safeguarding Against and
Responding to the Breach of Personally Identifiable Information (PII), states, in part, that
agencies should notify law enforcement agencies and Inspectors General of actual or
suspected breaches involving PII. We discussed this finding with the ITM Information
System Security Officer (ISSO) and the policy was subsequently revised to include
notification to the OIG.

During our discussions with ITM and the ASO staff, we found inconsistencies in the staff’s
understanding of notification and reporting responsibilities. ITM’s Computer Security Incident
Policy clearly delegates the responsibility for investigating and reporting computer incidents to
the Computer Security Incident Team (CSIT), which, according to its policy, consists of three
members from ITM; the Deputy Chief Information Officer, Network Administrator, and the
ISSO. However, we found that ITM delegates the responsibility for reporting computer-related
incidents (e.g. FPS) to the ASO.

We recommend that ITM assumes responsibility for notification and reporting of any computer-
related incidents as required by its policy.



                                                 3
We also identified several inconsistencies in the Agency’s written policies governing reporting
computer-related incidents. For example:

Directive 1355, Section V. D.8, instructs employees to report theft and vandalism of Federal or
personal property first to the FPS, and immediately thereafter to the ASO or ITM as relevant.
However, this is in direct conflict with ITM’s Computer Security Incident Policy which only
instructs employees to report the incidents to the Help Desk via e-mail (or phone if e-mail is not
available).

We recommend that ITM and the ASO collaborate to ensure that Agency directives and ITM’s
Computer Security Incident Policy are consistent and implemented. The policies should
clearly outline the responsibility for notification of computer-related security incidents to both
external and internal parties by ITM and security incidents involving non-computer-related
equipment to the ASO. In addition, we recommend that the Agency ensures that the policies
are communicated to employees and contractors.


                                    INTERNAL CONTROLS

Accountability for NEA Computer-Related Equipment

NEA Directive 1355 Section D.12 directs employees to return all assigned Federal computer-
related hardware and software to ITM upon separation from the Arts Endowment. However,
ITM records indicate that in one instance, a laptop was not returned upon separation of an
employee. The employee was assigned a laptop in 2003 and subsequently re-assigned it to
another employee, without notifying ITM. Employment Clearance Statements indicated that
both employees were cleared by ITM for returning all computer-related equipment, including
laptops. The original assignee was cleared January 2009 and the subsequent employee was
cleared in August 2007. ITM contacted both employees in February 2009 to determine the
location of the laptop. The employee who separated in 2007 indicated that the laptop was
returned prior to separation, however, there is no documentation to confirm that the laptop was
returned to the agency. An incident report was not completed and the ISSO was not notified.
We recommend that ASO and ITM collaborate to develop and implement policies and
procedures to prohibit the assignment of any computer-related equipment by employees other
than authorized ITM staff.

NIST SP-800-53, Revision 3, Recommended Security Controls for Federal Information
Systems and Organizations, Appendix F-Media Protection, recommends as a control
enhancement, organizations track, document and verify media sanitation and disposal actions.
ITM’s inventory includes equipment classified as “retired”; however “excessed” equipment is
not included. For example, the above laptop was identified in ITM’s 7/16/2008 inventory as
assigned to the original employee; however, a separate excess report identified the laptop as
excessed on 1/10/2008. The laptop was not identified in the 2009 inventory. In addition, the
excess list provided did not indicate how or to what organization the equipment was excessed.


                                                 4
According to ITM’s Equipment Inventory Policy, when equipment is transferred between
departments or moved to another location the information on the IT Equipment Inventory
Spreadsheet must be updated to reflect the new location of the equipment. ITM or the ASO
did not maintain documentation identifying the recipient of the excessed computer-related
equipment.


We recommend that ITM, in cooperation with the ASO, develop and implement policies and
procedures to ensure documentation on all computer-related equipment classified as excess is
maintained, including the identification of the recipient organization. We also recommend that
ITM include excess computer-related equipment in its inventory, in the year of excess, to
improve accountability and ensure that computer-related equipment is accurately accounted
for and documented.

NEA employees are not required to provide written acknowledgement for receipt of computer-
related equipment; therefore, there is no documentation to support receipt of equipment.
We recommend that ITM, in cooperation with ASO, develop and implement policies and
procedures to ensure that computer-related equipment issued to employees or contractors is
adequately documented and the employee’s signature is included to acknowledge receipt.

To further strengthen controls, we recommend that ASO and ITM work with the Office of
Human Resources to revise the standard employee exit form to include identification
information on computer-related equipment to ensure equipment issued to employees or
contractors is returned to the Agency upon separation.

The agency informed us that the standard employee exit form has been revised to include
identification information for computer-related equipment, and is now in use.

We were informed by ITM that the return of assigned computer-related equipment is verified
before clearing employees or contractors for separation. However, we recommend that ITM
documents the identification number on the employee exit form to verify return of “assigned”
equipment.

Portable and mobile computer systems, such as laptops, have an increased risk of theft and
physical damage. Users can also "misplace" or leave laptops unattended. In seven of the
eight reported incidents, laptops were stolen from the offices of NEA where they were left
unsecured. NEA Directive 1355, states in part, that agency personnel are responsible for
“returning promptly to ASO or ITM all property and equipment lent from their inventories at the
conclusion of the meeting or other purpose.” However, in one instance, seven laptops were
authorized for an event outside of the building. At the end of the event, the laptops were
packed in boxes labeled “laptops” to be returned to the agency. The boxes were stored over a
weekend in an agency storeroom. According to ITM records, three laptops were stolen
somewhere between the facility and storage at the NEA.



                                               5
NIST 800-12, An Introduction to Computer Security: The NIST Handbook, recommends
secure storage of laptops when not in use. The handbook recommends encryption of data files
on stored media as a cost-effective precaution against disclosure of confidential information if
a laptop is lost or stolen. It also recommends user security briefings on the proper security of
portable computer systems and signed briefing acknowledgments.

We recommend that ITM provide all users with physical security for laptops such as “security
cable locks” and ensure that users understand and acknowledge their responsibility for the
security of Agency computer-related equipment. We also recommend that ITM install anti-theft
software on laptops.

On January 14, 2011, ITM began installing security cable locks on desktop and laptop
computers.

Removal of NEA Computer-Related Equipment

NEA Directive 1355, VII.B, states that “if the item to be removed is computer-related hardware
or software, whether owned by the Federal government or the individual, the individual must
obtain a special pass signed by the CIO [Chief Information Officer] or other authorized ITM
official.”

Directive 1355, Section VII.C states: “On departing from the OPO with the specified property,
the security guard on duty will check the pass’s signature against a list of authorizers’
signatures. The guard also may ask to see the item. When the guard has determined the
validity of the pass, the individual may leave with the item.” This policy would be impossible to
implement without the cooperation of employees. However, we found that employees were
not requesting or displaying passes for the removal of NEA computer-related equipment. This
weakness in controls over computer-related equipment increases the risk of the Agency and its
employees being exposed to potential loss of Federal property and theft of PII or sensitive
information.

We recommend that ASO and ITM collaborate to revise its policies and directive to improve
security requirements for removing computer-related property, such as laptops and
communicate the requirements to NEA employees.


                             DOCUMENTATION OF INCIDENTS

ITM was unable to provide adequate documentation detailing the events for seven of the eight
incidents. ITM did not complete computer security incident reports and did not maintain
documentation for resolution or final disposition of the incident. ITM informed us that computer
security incidents were reported to ASO by email or telephone.

NIST and the US-CERT: United States Computer Emergency Readiness Team’s incident
reporting guidelines provide recommendations for incident documentation. For example,

                                                6
NIST SP 800.61, 3.2.5 Incident Documentation, recommends, in part:

      As soon as an incident response team suspects that an incident is occurring or
      has occurred, it is important to immediately start recording all facts regarding the
      incident. The incident response team should maintain records about the status of
      incidents, along with other pertinent information.

ITM’s Computer Security Incident Policy also directs the CSIT to ensure that all computer
incidents are investigated in a “timely fashion.” However, the policy does not include time
requirements or guidance on “timely fashion.” In one instance, ITM took more than two weeks
before determining that there was no PII or any other sensitive information on the missing
laptop.

Directive 1355, VIII.C further directs the affected employee to prepare a brief memorandum to
the ASO detailing the incident. The ASO could only provide memoranda to support two
incidents.

We recommend that the ITM develop and implement policies and procedures to adequately
document computer security incidents. ITM should develop time requirements for investigating
and reporting computer security incidents. Written notification of computer-related incidents to
appropriate internal and external parties should be supported by Computer Incident Reports
and employee’s statement detailing events. We also recommend that the ASO and ITM
collaborate to revise policies and procedures to ensure affected employees adequately
document computer security incidents and submit the documentation to ITM. ITM should also
include this requirement in its Computer Security Incident Policy.

                                       RECOMMENDATIONS

As a result of our findings and the most recent computer incident, the ISSO submitted
recommendations to the CIO to address weaknesses found in ITM’s computer incident policies
and procedures. The recommendations included:

1.    Encryption of information on all mobile computers/devices which carry Agency
      information to ensure PII and sensitive information is not compromised.

2.    Revising ITM’s Computer Security Incident Policy to centralize the responsibility of
      notifying all parties involved of lost or stolen equipment, including time requirements for
      reporting incidents.

3.    Developing and implementing the standard incident reporting form to include detailed
      information on computer equipment lost or stolen.

4.    Requiring users to sign for mobile/portable computer-related equipment (e.g., laptops)
      and acknowledge responsibility for safeguarding equipment.



                                                    7
5.    Developing or revising the inventory system for tracking stolen equipment and include
      status of encryption and whether PII or sensitive data is on equipment.

6.    Developing and implementing procedures to ensure accuracy of inventory tracking
      system.

7.    Increasing users’ knowledge on computer security incident reporting.


In addition to the ISSO recommendations, the OIG recommends:

1. ITM assumes responsibility for notification and reporting of any computer-related incidents
   as required by its policy.

2. ASO and ITM collaborate to ensure that Agency directives and ITM’s Computer Security
   Incident Policy are consistent and implemented. The policies should clearly outline the
   responsibility for notification to both external and internal parties by ITM for computer-
   related equipment and ASO for non-computer-related equipment and building operations.
   In addition, we recommend that the Agency ensures that the policies are communicated to
   employees and contractors.

3. ASO and ITM collaborate to develop and implement policies and procedures to prohibit the
   assignment of any computer-related equipment by anyone other than authorized ITM
   employees.

4. ASO and ITM collaborate to develop and implement policies and procedures to ensure
   documentation on all computer-related equipment classified as excess is maintained,
   including the identification of the recipient organization.

5. ITM include excess computer-related equipment in its inventory, in the year of excess, to
   improve accountability and ensure that computer-related equipment is accurately
   accounted for and documented.

6. ITM, in cooperation with the ASO, develop and implement policies and procedures to
   ensure that computer-related equipment issued to employees is adequately documented
   and the employee’s signature is included to acknowledge receipt.

7. ITM documents the serial number of mobile/portable computer-related equipment on the
   employee exit form to verify return of “assigned” equipment.

8. ITM provide all users with physical security for laptops such as “security cable locks” and
   ensure that users understand and acknowledge their responsibility for the security of
   Agency computer-related equipment. We also recommend that ITM install anti-theft
   software on laptops.


                                               8
9. ASO and ITM collaborate to revise Agency policies and directives to improve security
   requirements for removing mobile/portable computer-related property, such as laptops and
   communicate the requirements to NEA employees.




10. ITM develop and implement policies and procedures to adequately document computer
    security incidents. ITM should develop time requirements for investigating and reporting
    computer security incidents. Written notification of computer-related incidents to
    appropriate internal and external parties should be supported by Computer Incident
    Reports and employee’s statement detailing events.

11. ASO and ITM collaborate to revise policies and procedures to ensure affected employees
    adequately document computer security incidents and submit the documentation to ITM.
    ITM should also include this requirement in its Computer Security Incident Policy.




                                               9
